NO.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

RODNEY RUSSELL
Petitioner
Vv.
UNITED STATES OF AMERICA

Respondent

On Petition For a Writ of Certiorari
to the United States Court of Appeals for the First Circuit

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the Supreme Court Bar
and, as required by Supreme Court Bar Rules 33.1(h), 33.1(g)(ii) and 39, the
Petition contains 8,876 words, excluding the parts of the petition that are exempted
by Supreme Court Rule.

WILLIAM S. MADDOX, Esquire
Counsel of Record for Petitioner
P.O. Box 1202

Rockland, Maine 04841

(207) 594-4020
